         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over
Selected Departmental Critical
Monitoring and Control Systems




OAS-M-05-06                            June 2005
REPORT ON MANAGEMENT CONTROLS OVER SELECTED
DEPARTMENTAL CRITICAL MONITORING AND CONTROL
SYSTEMS


TABLE OF
CONTENTS


   Protecting Critical Monitoring and Control Systems

   Details of Finding ...........................................................................................1

   Recommendations...........................................................................................5

   Comments .......................................................................................................6


   Appendices

   1. Objective, Scope, and Methodology.........................................................9

   2. Prior Reports ...........................................................................................11

   3. Management Comments .........................................................................13
PROTECTING CRITICAL MONITORING AND CONTROL
SYSTEMS

Ensuring Continuation   The Department of Energy (Department) could not
or Restoration of       ensure that it could continue operations or quickly restore
Essential Operations    selected critical monitoring and control systems in the
                        event of an emergency. Specifically, management had not
                        fully assessed risks or taken adequate steps to mitigate the
                        foreseeable risks confronting the six critical monitoring and
                        control systems we reviewed.

                                              Risk Assessments

                        Management had not fully assessed the risk and
                        cost-benefit of risk mitigation strategies for three of the six
                        systems we reviewed, including Argus which is a system
                        deployed at a number of sites to control access to facilities
                        that house critical information and nuclear materials. To
                        manage risk, the Federal Information Security
                        Management Act requires agencies to assess, mitigate, and
                        periodically reevaluate risks and security measures for all
                        major systems. Risk assessments enable management to
                        identify threats, vulnerabilities, and the likelihood of
                        adverse actions or potential consequences. Specifically,
                        management had not:

                              •   Conducted a comprehensive risk assessment for
                                  Argus at Lawrence Livermore National
                                  Laboratory (Livermore). While program officials
                                  had addressed the risk of the system and of its
                                  network not being available, they had not
                                  identified and mitigated risks posed to the system
                                  by natural disasters, environmental hazards, or
                                  human error. For example, the risk of human
                                  error was increased because an administrator was
                                  responsible for both reviewing vulnerability scans
                                  and implementing corrective actions to address
                                  identified vulnerabilities. To the site's credit,
                                  management took action to correct this problem
                                  when we brought it to their attention.

                              •   Fully analyzed the cost and benefit of strategies to
                                  mitigate identified threats and vulnerabilities
                                  posed to the Distributed Control System which
                                  controls the emergency oil flow at the Strategic
                                  Petroleum Reserve. For example, at the time of
                                  our site visit, management had not completed its


________________________________________________________________
Page 1                                            Details of Finding
                               assessment of the likelihood of exploitation of
                               identified vulnerabilities nor the impact of such
                               exploitation on the system and its energy resource
                               mission. Consequently, management could not
                               fully assess the probability and consequence of
                               vulnerabilities being exploited or evaluate the cost
                               and benefits of eliminating such issues.
                               Subsequent to our field visit, management
                               informed us that they had completed a risk
                               assessment that included risk mitigation action
                               plans.

                           •   At the time of our site visits, officials had not
                               completed a documented risk assessment to
                               identify and evaluate potential system threats and
                               vulnerabilities for the Argus system that is used to
                               control access to the Department Headquarters
                               (Headquarters).

                                            Risk Mitigation

                      Management did not take necessary actions to mitigate
                      foreseeable risks associated with critical monitoring and
                      control systems. Specifically, management had not fully
                      developed and tested contingency plans for three of the six
                      systems to ensure that emergency situations would be
                      effectively managed. Also, it did not ensure it could
                      recover from an incident by protecting system backup
                      capabilities from the same risks posed to the primary
                      systems. Four of the six systems either had their backup
                      systems and/or backup software co-located with the
                      primary system or had not provided backup capability to
                      control critical processes during an emergency situation.
                      For example:

                           •   The Western Area Power Administration's
                               (Western) Supervisory Control and Data
                               Acquisition system (SCADA), which helps
                               control the flow of electricity to a regional power
                               grid, had its backup copies of system software and
                               data co-located with the primary system, in part
                               because its contract for off-site storage had
                               lapsed. It also had its backup system co-located
                               with the primary system. The Livermore Argus
                               system also had backup copies of system software and

________________________________________________________________
Page 2                                            Details of Finding
                               data co-located with the primary system. In
                               addition, contingency plans for recovering
                               mission capability for both the Western and
                               Livermore systems had not been completed or
                               tested. Near the end of our audit we learned that
                               Western had purchased and was configuring a
                               secondary control system that management
                               planned to locate off-site. Also, subsequent to our
                               review, Western indicated that it had arranged to
                               ship data backups to an off-site storage facility on
                               a regular basis.

                           •   The Savannah River Site's Distributed Control
                               System used to control the flow of tritium at its
                               processing facility did not have a backup system
                               and did not have a plan that fully addressed
                               recovery of system capability.

                           •   The Strategic Petroleum Reserve Distributed
                               Control System, used to control the flow of oil to
                               emergency reserves, had its primary and backup
                               system located in the same room. The system
                               contingency plan at the Strategic Petroleum
                               Reserve was limited to procedures for obtaining a
                               manual replacement system in the event of system
                               failure, and did not address the susceptibility to
                               failure caused by common disasters due to
                               maintaining primary and backup systems in the
                               same control room. Had the primary and backup
                               systems been adequately separated, it may have
                               eliminated the need to adopt manual methods – a
                               process described as costly by a site engineer – in
                               the event of a localized disaster.


Risk Management       Site management had not sufficiently considered and
                      periodically evaluated the risk that critical monitoring and
                      control systems we reviewed would become inoperable and
                      unable to be restored in a timely manner. For example, five
                      of the six systems reviewed had not been certified and
                      accredited (C&A) for operation according to National
                      Institute of Standards and Technology (NIST) guidance at
                      the time of our site visits (only the Savannah River Site had
                      certified and accredited the Defense Waste Processing
                      Facility's Distributed Control System). C&A represents
                      senior management's decision to authorize the system for

________________________________________________________________
Page 3                                            Details of Finding
                          operation and requires management to explicitly accept the
                          risk of operating the system based on an agreed upon set of
                          security controls. According to NIST, systems cannot be
                          properly certified and accredited unless management
                          ensures that it completes a risk assessment, security plan,
                          contingency plan, and necessary mitigating controls. In
                          commenting on a draft of our report, management officials
                          stated that they had begun or completed implementing a
                          comprehensive risk management process, to include C&A
                          of systems and other mitigating actions.

                          Furthermore, the Department had made only limited use of
                          its own internal experts in evaluating the risks pertaining to
                          critical monitoring and control systems. The Department
                          established a group of energy infrastructure control system
                          experts at Sandia National Laboratory that have provided
                          advice to private sector utilities regarding critical control
                          systems. These experts told us that they had received very
                          few internal requests to utilize their expertise. Of the sites
                          we reviewed, only the Strategic Petroleum Reserve availed
                          themselves of these experts. Officials at one site we visited
                          stated that they were not aware that these experts were
                          available. Had their services been utilized, many of the
                          weaknesses we identified may have been disclosed and
                          corrected. After our field work was complete, management
                          officials told us that they intend to utilize Departmental
                          expertise in the future where appropriate.


Critical Infrastructure   Critical monitoring and control systems were vulnerable
and Public Safety         to disruptions due to disasters or other emergencies.
                          Assessing and mitigating risks to these systems may help
                          prevent extended system shutdowns that could lead to the
                          wide-scale disruptions to electricity grids, the inability to
                          maintain controlled access to critical information and
                          nuclear materials, or the use of costly alternatives to
                          provide emergency energy supplies in the event of a
                          national crisis.




________________________________________________________________
Page 4                                            Details of Finding
                     The lack of adequate backup systems and contingency
                     planning were recently highlighted as part of the cause of
                     the August 2003 blackout in the northeast portion of the
                     United States. Key monitoring systems failed, thereby
                     preventing electricity control operators from detecting a
                     short circuit in the grid, resulting in a cascading power
                     failure across the northeastern United States. A joint
                     United States and Canadian task force investigating the
                     blackout also noted that it was caused in part by failure to
                     conduct multiple contingency and extreme condition
                     assessments and to have backup monitoring tools available
                     after the primary alarming/monitoring systems failed.


RECOMMENDATIONS      To ensure that the Department's critical monitoring and
                     control systems are able to continue operation in the event
                     of emergencies, we recommend that the Associate
                     Administrator for Management and Administration,
                     National Nuclear Security Administration; the Principal
                     Deputy Assistant Secretary for Fossil Energy; the Director,
                     Office of Security and Safety Performance Assurance; and
                     the Administrator, Western Area Power Administration
                     ensure that critical monitoring and control system owners:

                          1. Implement a comprehensive risk management
                             process for its critical monitoring and control
                             systems. This process should include:

                                  a. Periodically assessing and mitigating risk
                                     to these major systems, including the
                                     completion of risk assessments,
                                     contingency plans, and certification and
                                     accreditation of systems;

                                  b. Ensuring that backup systems and media
                                     are located a sufficient distance from the
                                     primary system to facilitate system
                                     recovery, to include consideration of off-
                                     site locations; and,

                          2. Take advantage of Department expertise to
                             periodically evaluate and strengthen management
                             controls over critical monitoring and control
                             systems.



________________________________________________________________
Page 5                                          Recommendations
MANAGEMENT           Management generally concurred with the report's overall
REACTION AND         conclusion and recommendations, but offered clarifying
AUDITOR COMMENTS     remarks or disagreed with some of our conclusions
                     regarding specific systems.

                     Proposed and stated actions are generally responsive to our
                     recommendations. Based on management's comments, we
                     modified our report where appropriate and deleted a
                     recommendation "to evaluate the need for remote system
                     operation capability." We have also made a number of
                     other technical corrections to our report to address
                     management's comments.

                     In reference to specific site comments, management
                     reaction and the auditor responses follow.

                                       Livermore Argus System

                     Management stated that while risk mitigation is a concern,
                     they considered Livermore's compensatory measures to be
                     adequate. They also noted they maintain this system's
                     operational software and backup tapes in a separate area
                     where it is readily available.

                     Management acknowledged that, despite a growing need, a
                     formal, comprehensive and documented risk assessment
                     has not occurred. We believe that in the absence of such an
                     analysis, management can not be assured that all risks have
                     been fully assessed and properly mitigated for these
                     systems. We do not agree that having Livermore Argus
                     backup data in an area separate from the live Argus system
                     is sufficient, since we found that the separate area is
                     adjacent to the room housing the live Argus system. Thus,
                     the backup tapes may be subject to the same localized
                     disaster as primary Argus system, such as flooding or fire.

                                     Headquarters Argus System

                     Management indicated that based on an assessment of the
                     impacts of adversary data theft at another site's Argus
                     system, the impacts on the Headquarters system would be
                     minimal since it operates on a closed Local Area Network.
                     Officials also stated that they have a "fail-over" scheme to
                     mitigate loss of functionality at either the Forrestal or the
                     Germantown facility by utilizing the other site's host

________________________________________________________________
Page 6                                                 Comments
                     computer in the event of a system failure. They also noted
                     that impacts due to human error are mitigated by providing
                     a limited number of trained individuals and a well trained
                     protective force to solely perform critical system functions
                     and restore the Headquarters' system's access control
                     system should it be rendered inoperative.

                     Nonetheless, a Headquarters official told us that the link
                     between the two sites was interrupted on more than an
                     occasional basis. The Headquarters Argus "fail-over"
                     scheme to mitigate loss of functionality at either the
                     Forrestal or the Germantown facility does not address the
                     fact that connectivity between the two sites is adversely
                     affected when the main data link between the sites is
                     disrupted.

                                      Western's SCADA System

                     Management stated that the system was certified and
                     accredited under independent review in compliance with
                     NIST requirements and this information should be updated
                     in the report's Risk Management section.

                     The Office of Inspector General does not agree with
                     Western's assertion that the SCADA system had been
                     certified and accredited in accordance with NIST
                     requirements at the time of our review. The certification
                     documentation we were provided and examined lacked
                     various elements needed to be consistent with NIST
                     guidance, such as the existence of contingency procedures
                     should a failure of the SCADA system occur. Also,
                     Western management officials told us that the certification
                     and accreditation satisfied requirements of the North
                     American Electric Reliability Council, not necessarily
                     those of NIST.

                                    Strategic Petroleum Reserve's
                                     Distributed Control System

                     Management explained that the controllers, input/output
                     modules, and the operator stations employ some form of
                     redundant backup that supports the metric of 95 percent
                     availability of systems [and] are all located in the same
                     control room to provide seamless recovery from any
                     equipment failure. Officials added that the backup for a
                     total system failure is to manually operate the existing site

________________________________________________________________
Page 7                                                 Comments
                     process equipment. They also noted that in conformance
                     with design criteria, the functional specification for the
                     system excluded the remote operability of the process
                     equipment. They stated that operational and security
                     concerns outweighed the potential benefits and that
                     manual operation of the site's process equipment as a
                     backup to total DCS failure is significantly less costly than
                     providing for remote capability.

                     Management had no documented risk assessment or cost
                     benefit analysis to support its decision to have the people,
                     process, and technology related to this system located in the
                     same control room and to rely on a costly manual process
                     to recover in the event of a total system failure. We believe
                     that Strategic Petroleum Reserve officials should have
                     documented how they arrived at their conclusions and thus
                     allowed management to make an informed decision
                     regarding whether to accept the associated risks during the
                     system accreditation process.

                     Management's comments are included in their entirety in
                     Appendix 3.




________________________________________________________________
Page 8                                                 Comments
Appendix 1

OBJECTIVE             To determine whether selected critical monitoring and
                      control systems could continue operation in a crisis and/or
                      had the ability to be restored with minimal disruption and
                      information loss.


SCOPE                 The audit was performed between October 2003 and
                      March 2005 at Department Headquarters, Washington, DC;
                      Lawrence Livermore National Laboratory, Livermore, CA;
                      Western Area Power Administration, Folsom, CA;
                      Savannah River Site, Aiken, SC; and the Strategic
                      Petroleum Reserve, New Orleans, LA. Specifically, we
                      performed a comprehensive review of the agency's key
                      processes for managing critical monitoring and control
                      systems information technology resources.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed a sample of the critical monitoring and
                               control systems as identified by Department
                               officials and the Project Matrix Step One Report,
                               dated August 2003;

                           •   Reviewed applicable laws, regulations, guidance
                               and best practices pertaining to managing
                               information technology resources and initiatives.
                               We also reviewed relevant reports issued by the
                               Office of Inspector General and the Government
                               Accountability Office;

                           •   Reviewed the Government Performance and
                               Results Act of 1993 and determined if
                               performance measures had been established for
                               managing information technology resources;

                           •   Reviewed numerous documents related to the
                               management of critical monitoring and control
                               systems, including information technology risk
                               management and contingency planning
                               documentation; and,

                           •   Held discussions with program officials and
                               personnel from the field sites.



________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 1 (continued)

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objectives. We assessed
                      significant internal controls and performance measures in
                      accordance with the Government Performance and Results
                      Act of 1993 regarding the management of the Department's
                      critical monitoring and control systems. We did not
                      identify any performance measures specific to managing
                      critical monitoring and control systems. However, the
                      Office of the Chief Information Officer (OCIO) has begun
                      tracking information on the number of systems that have
                      been certified and accredited and have developed and tested
                      contingency plans. Because our review was limited, it
                      would not necessarily have disclosed all internal control
                      deficiencies that may have existed at the time of our audit.
                      We did not rely on computer-processed data to accomplish
                      our audit objective.

                      An exit conference was held with appropriate management
                      officials on May 19, 2005.




________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 2

                                      PRIOR REPORTS


Office of Inspector General Reports


       • The Department's Continuity Planning and Emergency Preparedness
         (DOE/IG-0657, August 2004). The report found five sites did not develop
         comprehensive plans to continue essential functions. Specifically, the sites had
         not fully identified essential functions or alternate facilities in case of emergency.
         Additionally, the Department did not have specific requirements for sites to
         validate the effectiveness of corrective actions addressing recognized
         preparedness weaknesses or to share complex-wide lessons learned about
         common problems. As a result, the Department may face increased risks to
         operations, employees, and surrounding communities during an emergency
         situation.

   •     Electricity Transmission Scheduling at the Bonneville Power Administration
         (DOE/IG-637, February 2004). The report outlined the results of an audit
         conducted to determine whether the Bonneville Power Administration
         (Bonneville) has a scheduling system in place to meet current and future
         transmission needs in an automated, deregulated environment. Bonneville's
         system for scheduling transmission transactions did not fully meet its needs in the
         current operating environment. Bonneville's management of the replacement
         system lacked a comprehensive project plan, and system development and
         implementation procedures. The effectiveness of the project management effort
         was hampered by the lack of standardized transmission contracts. Automated
         scheduling would enhance Bonneville's electrical transmission grid by allowing
         Bonneville to react more quickly to disruptive events, such as a May 2003
         incident in which Bonneville exceeded the operating capacity of one of its
         transmission lines.

   •     Planning for National Nuclear Security Administration Infrastructure
         (OAS-B-03-02, May 2003). The report outlined the results of an audit conducted
         to determine whether the National Nuclear Security Administration's (NNSA) site
         plans provided accurate and useful data to aid in the prioritization of mission
         critical facility renovation and repair projects. The OIG concluded, in part, that
         NNSA site plans did not identify or prioritize the mission critical facilities and
         infrastructure in need of repair or refurbishment.




________________________________________________________________
Page 11                                              Prior Reports
Appendix 2 (continued)


   •    Cyber-Related Critical Infrastructure Identification and Protection Measures
        (DOE/IG-0545, March 2002). The report outlined the results of an audit
        conducted to determine whether the Department had identified and developed
        protection measures for its critical cyber and related physical infrastructure
        assets. While the Department had initiated certain actions designed to enhance
        cyber security, it had not made sufficient progress in identifying and developing
        protective measures for critical infrastructures or assets. Even in light of the
        magnitude of the challenges it faces in this arena, the Department had not
        devoted sufficient resources to identifying and developing protective measures
        for cyber-related assets.


   Government Accountability Office (GAO) Reports


       Critical Infrastructure Protection: Challenges and Efforts to Secure Control
        Systems, GAO 04-354, March 2004). GAO found that along with the increasing
        cyber threats to control systems, other factors such as standardized technologies
        with known vulnerabilities and increased connectivity increased the risk to these
        systems. They note that successful attacks on control systems could have
        devastating consequences, such as endangering public health and safety.
        Securing control systems poses significant challenges, including limited
        specialized security technologies. Without effective coordination of efforts to
        secure these systems, there is a risk of delaying the development and
        implementation of more secure systems to manage our critical infrastructures.

   •    Critical Infrastructure Protection: Challenges for Selected Agencies and
        Industry Sectors (GAO-03-233, February 2003). GAO issued this report in
        response to a Congressional request to assess the pace and progress of certain
        Federal agencies (including the Department of Energy) and private sector
        Information Sharing and Analysis Centers in achieving certain objectives
        contributing to the protection of infrastructures critical to the nation. GAO
        concluded that although the agencies under review had taken some actions to
        implement critical infrastructure protection policy, they had not completed the
        fundamental step of identifying their critical infrastructure assets and the
        operational dependencies of these vital assets on other public and private assets.




________________________________________________________________
Page 12                                              Prior Reports
Appendix 3




________________________________________________________________
Page 13                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 14                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 15                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 16                                     Management Comments
                                                             IG Report No. OAS-M-05-06

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
